<html>
<title> - BUILDING THE CAPACITY OF FOREIGN MILITARY FORCES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-107]
 
            BUILDING THE CAPACITY OF FOREIGN MILITARY FORCES

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 7, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                    U.S. GOVERNMENT PRINTING OFFICE
32-973                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK E. UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
               Stephanie Sanok, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                 Regina J. Burgess, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Friday, April 7, 2006, Building the Capacity of Foreign Military 
  Forces.........................................................     1

Appendix:

Friday, April 7, 2006............................................    35
                              ----------                              

                         FRIDAY, APRIL 7, 2006
               BUILDING THE CAPACITY OF FOREIGN MILITARY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     3

                               WITNESSES

Edelman, Ambassador Eric S., Under Secretary of Defense for 
  Policy, Department of Defense..................................     5
Hillen, Dr. John, Assistant Secretary of State, Political-
  Military Affairs, Department of State..........................     8
Jones, Gen. James L., Commander, U.S. European Command, U.S. 
  Marine Corps...................................................    11

                                APPENDIX

Prepared Statements:

    Edelman, Ambassador Eric S...................................    39
    Hillen, Dr. John.............................................    48
    Jones, Gen. James L..........................................    55

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mr. Hunter...................................................    65
    Mr. Shuster..................................................    65
            BUILDING THE CAPACITY OF FOREIGN MILITARY FORCES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                             Washington, DC, Friday, April 7, 2006.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order.
    I want to welcome our witnesses. We have with us today the 
Honorable Eric S. Edelman, Under Secretary of Defense for 
Policy, Office of the Secretary of Defense; the Honorable John 
Hillen, Assistant Secretary of State, Political-Military 
Affairs, Department of State; and General James L. Jones, 
United States Marine Corps, Commander, U.S. European Command.
    Gentlemen, thanks for being with us today. Thanks for your 
service, and especially during this very critical time for our 
Nation.
    In a threat environment that has changed so radically, we 
must continually reassess our programs and policies to ensure 
that we prosecute the war on terror as effectively as possible. 
Today the committee will consider one program of special 
concern, the special authority, this recent authority that 
gives the Defense Department latitude in building the capacity 
of foreign military forces that partner with the United States 
to combat terrorism or carry out stability operations, or both, 
around the world.
    The committee wants to be as supportive as possible in 
achieving the goal of enabling foreign militaries to carry out 
such missions so American troops can focus their energies in 
other arenas. We understand empowering foreign troops in Iraq, 
Afghanistan, and the Republic of Georgia, to name but three 
examples, is an essential element of building allies' 
capabilities, helping to establish security, influencing local 
populations and ultimately winning the Global War on Terror.
    Our support was manifested in the fiscal year 2006 
Authorization Act in which Congress established a 2-year pilot 
program that gives the Defense Department the authority to use 
up to $200 million to build the capacity of foreign military 
forces to undertake counterterrorism and stability operations.
    And while we did enact this short-term fix, our intention 
was that it would serve only as a stop-gap measure, while the 
Administration could address the larger problem of how our 
ability to train and equip foreign forces is arranged under the 
State Department's traditional foreign assistance programs, 
programs which have been characterized as unresponsive, slow, 
and cumbersome.
    The State Department has more than $4.6 billion in its 
fiscal year 2006 budget set aside for foreign military 
assistance, including the training and equipping of foreign 
military forces. And so one of the concerns of this committee 
is that recent legislative proposals to fund DOD train-and-
equip efforts would divert money from the military services 
operation and maintenance budgets, adversely impacting our 
efforts to reequip and retrain our own troops.
    The safety and effectiveness of American troops remain this 
committee's top priority. So we have, I think you can 
understand, some strong concerns that shifting money away from 
them and toward missions that have historically belonged to the 
State Department carry some problems for us. And that is why 
the congressionally authorized pilot program requires the 
Defense Department to use money from defense-wide accounts to 
avoid a situation in which services surrender funds needed to 
sustain important operations and maintenance.
    And I think, General Jones, if you have been talking to 
your Marine Corps colleagues, some of those great folks that 
are running the operation in the warfighting theaters, you have 
probably seen the price tag on reset for those forces, and you 
have got correspondingly high price tags, I am sure, on the 
Army side as well. So that is something that we are very 
concerned about when we look at the potential diversion into 
train-and-equip accounts.
    Also, aside from money concerns, there is also a long-term 
commitment and diplomatic element implied in the training and 
equipping of foreign militaries, another fact that recommends 
such a program remain under the State Department umbrella.
    Training and equipping foreign forces is not an easy job, 
since this mission involves more than providing simple basic 
training, some weapons, and trucks. Building a competent, 
professional force also requires a government behind that force 
that is not wracked with corruption and that is capable of 
paying and taking care of its soldiers. Otherwise these 
soldiers will not be dependable in a crisis, as we have seen.
    We may be encouraged by the task force led by U.S. Marines 
that recently completed training two Georgian logistics 
battalions. When they deploy they will be part of the 
international coalition engaged in Iraq stability operations. 
But we must also remember that we had to train the Georgian 
battalions twice because there were some dependability problems 
the first time around.
    All of this goes to my key concern today. If our foreign 
military assistance programs are currently not flexible or 
responsive or comprehensive enough to meet this war's frontline 
demands, we need to look critically at how these programs are 
arranged, funded and implemented, and then make the necessary 
strategic and institutional changes.
    We asked the Administration for recommendations to amend 
the foreign assistance laws in Title 22, the part of the U.S. 
Code that governs activities of the State Department, which is 
where a long-term solution must lie. So we would like to hear 
from you today about how you might address the shortfalls and 
challenges in the larger foreign assistance program, because 
the longer we wait to address the root of the problem, the more 
difficult it will be to fix.
    It seems likely that the need to train and equip foreign 
forces will remain a necessary mission as we continue to fight 
the Global War on Terror. We should therefore ensure that we 
can use the Federal funds intended for training and equipping 
foreign forces as easily and as quickly as situations on the 
ground demand.
    So that, I hope, lays out some of our concerns and some of 
the focus we would like you folks to take today in your 
comments.
    And before we go to our witnesses, let me turn to my good 
friend, the gentleman from Missouri, Mr. Skelton, for any 
remarks he would like to make.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, thank you. I think this hearing 
is a very timely one. I am sorry that more members are not 
here; but because votes were canceled, we know a good number of 
our members went home.
    I thank the gentlemen for appearing today with us. Last 
year the Department lobbied us very hard to include additional 
authorities to train and equip armed forces of partner nations. 
After some consideration, we decided not to carry any of those 
expanded authorities within our bill. It was only through an 
extension process during the conference with the Senate that we 
were able to come to an understanding and provide some limited 
authority for the Secretary. That ultimately became section 
1206 of the National Defense Authorization Act.
    Already, I am told that the Department has been up to see 
our staff to lobby for relaxing the restrictions we put in 
place, before they have even tried to execute any programs 
under the existing authorities that we gave them.
    The reason for these limitations were very clearly spelled 
out in the conference report. So let me, Mr. Chairman, quote it 
for a moment to make sure it fully registers:
    ``The conferees note that under current law, foreign 
military training programs are conducted exclusively under the 
authority of the Secretary of State.
    ``The conferees believe it is important that any changes in 
statutory authorities for foreign military assistance do not 
have unintended consequences for the effective coordination of 
U.S. foreign policy at large, nor should they detract from the 
Department of Defense's focus on its core responsibilities, 
particularly the warfighting task for which it is uniquely 
suited.
    ``The conferees view the provision under this section of 
limited new authorities for the President, to direct the 
Secretary of Defense to conduct such programs as a two-year 
pilot program.''
    So, Mr. Chairman, we also were very careful to ensure that 
the Department was unable to raid moneys meant for the 
warfighters to do these missions, which is why we limited the 
transfer authority to the defense-wide operations and 
maintenance account.
    Now, let me emphasize that while we clearly have some 
concerns about how these programs would be administered, where 
the money comes from, and how proposed usage of these limited 
authorities fit into an overreaching, coordinated, geostrategic 
framework, I can understand the general need for such programs. 
In this Global War on Terror, we need all of the help we can 
find.
    Where nations are willing to pony up resources, especially 
in terms of available troops, then we should do all we can to 
make sure that they are as well trained and well equipped as we 
can make them. Clearly no one is better suited to patrol the 
ungoverned spaces in Africa than the Africans, or mount 
operations in the tribal areas of Pakistan than the Pakistanis, 
for example. Not only will they be more effective than we could 
ever be, but it will also relieve at least some of the demand 
to deploy our own troops.
    This pilot program is intended to be an opportunity for the 
Department to demonstrate a proof of concept before we consider 
wider authorities. And it is intended to give the 
Administration some flexibility in meeting emergency 
requirements, while it looks at what changes are needed in the 
way we orchestrate and provide foreign military assistance at 
large.
    It may be that the existing mechanisms are not sufficient 
to meet the demands of the 21st century. But that does not mean 
we should be cobbling together bits and pieces of new 
authorities, ad hoc. It needs to be a measured process that 
protects us from unforeseen, unwanted, second- and third-order 
effects that can have an adverse strategic impact that would 
affect our country.
    Mr. Chairman, I look forward to the hearing. Thank you.
    The Chairman. I thank the gentleman. So, gentlemen, thanks 
for being with us this morning. And I think you can see, at 
least from our opening statements, that this train-and-equip 
issue is important. Part of winning the war on terror involves 
empowerment, means empowering our allies and those who would 
fight terrorism to have the capability to carry on the battle. 
And we understand we have to do that. That is an important 
element of the war against terror.
    On the other hand, it has to be done effectively and 
efficiently. And, there is--because it necessarily means 
working closely with the governments involved--there is what I 
would call a heavy diplomatic dimension to this train-and-equip 
program, which would seem to lend itself to a State Department 
direction.
    And, last, I hope you can appreciate the concern we have 
with making sure that we do not come out of these warfighting 
theaters with a military that has equipment that is used up. 
That means that operation and maintenance have to be sustained 
for our forces, and that we look askance at programs that would 
pull money away from U.S. Marines and soldiers to train and 
equip, when we have a diplomatic arm--that is the State 
Department--which has a program which appears to have been 
shaped to carry on just what, in fact, DOD has been doing in 
some of these warfighting theaters.
    So thanks for being with us. I think we have teed this ball 
up for you.
    Ambassador Edelman, good morning. And what do you think 
here? And, incidentally, all written statements, gentlemen, 
will be taken into the record. So feel free to summarize.

  STATEMENT OF AMBASSADOR ERIC S. EDELMAN, UNDER SECRETARY OF 
           DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE

    Ambassador Edelman. Mr. Chairman, Mr. Skelton, and other 
Members, thank you very much for giving us the opportunity to 
appear before you this morning. Before I start, I do want to 
thank you for the thought that you shared and that Mr. Skelton 
shared at the outset, and particularly for your support for our 
men and women in the field. I think that is an objective we all 
share.
    I also am very pleased to be here today with my friend and 
colleague John Hillen from the Department of State, from whence 
I initially hailed before I came into my current 
responsibilities; and also with General Jones, with whom I have 
worked in the past closely when I was ambassador to Turkey.
    Mr. Chairman, America faces adaptive enemies. We must also 
be adaptive and seize emerging opportunities in the Global War 
on Terrorism. And one such opportunity, as you noted, is the 
building of the capacity of partner nations to fight in the 
Global War on Terror; because, although we possess the finest 
military force in the world, this global war will not be won 
without the help of partner nations.
    The President's recently released National Security 
Strategy calls for the transformation of America's national 
security institutions and for strengthened alliances to defeat 
global terrorism and to prevent attacks against the U.S. and 
our friends.
    The NSS further states that effective international 
cooperation is dependent on capable partners. The recent 
Quadrennial Defense Review, or QDR, points out that the ability 
of the U.S. to work with capable partners to influence the 
global environment is fundamental to defeating terrorist 
networks. Wherever possible, the U.S. must enable allied and 
partner capabilities, building the capacity and developing 
mechanisms to share the risks and responsibilities of today's 
complex challenges.
    The U.S. strategy in the Global War on Terror has three key 
elements: protecting the homeland; disrupting and attacking 
terrorist networks; and countering ideological support for 
terrorism.
    Building partner capabilities contributes to all three of 
these elements. And it is the Global War on Terrorism's 
counterpart to President Roosevelt's arsenal of democracy.
    During World War II, the United States shipped large 
amounts of supplies to allies such as England and Russia, 
taking advantage of the fact that these allies were often far 
better positioned to fight the axis. These supplies ensured 
that the allies maintained the means and morale to stay in the 
fight and helped reduce the number of U.S. casualties.
    Today, enabling our partners to share the burden of the 
Global War on Terror produces many of the same results. Sending 
our troops into harm's way without competent military partners 
and security forces significantly increases the risks they may 
face.
    The existence of capable partners, on the other hand, 
reduces stress on our military, as many global war on terrorism 
tasks, as Mr. Skelton noted, are best accomplished by and with 
partner nations who know the local geography, know the language 
and the culture.
    Secretary Rumsfeld recently testified that it costs 
approximately $90,000 a year to sustain a U.S. servicemember in 
theater, as opposed to about $11,000 to sustain an Afghan 
soldier, or $40,000 for an Iraqi soldier.
    Additionally, helping our partners gain security 
capabilities helps us to reduce ungoverned areas, thereby 
depriving terrorist organizations of potential safe havens and 
allowing our partners to secure their national borders, restore 
legitimate authority, and establish the rule of law.
    It is clear that building partnership capacity is an 
essential task. However, the train-and-equip authorities 
created during the Cold War are ill-suited to the adaptive, 
asymmetric, non-state threats that we are facing today. They 
cannot be relied upon to help us defeat the forces of global 
terrorism, we need some new, more responsive authorities to 
help us expedite the training and equipping of partner nations.
    Mr. Chairman, you mentioned in your comments the experience 
we have had with Georgia. In October 2001, the President 
announced support for training Georgian forces to close 
terrorist safe havens along its borders. But because we were 
using outdated Cold War-era authorities, we had to struggle to 
meet this pledge, cobbling together seven different funding 
streams, working through two different agencies, and employing 
allied contributions as well.
    It took seven months to begin the staff-level training, and 
tactical training did not begin until September 2002. Training 
four battalions took two and a half years, until May 2004.
    However, once trained and equipped, the Georgian forces 
have made a significant contribution to the Global War on 
Terrorism. These troops took on the terrorist networks in their 
own Pankisi Gorge that we had a common interest with them in 
disrupting. And as an unanticipated benefit, many of these 
forces have subsequently deployed to Iraq. And today Georgia 
has 850 soldiers serving in Operation Iraqi Freedom (OIF) in 
support of coalition operations, which makes them the highest 
per-capita contributor among our coalition partners in the 
operation.
    We need the authorities to help us build the capacity of 
partners like Georgia in a more effective and more timely 
manner. The section 1206 Partnership Capacity Building 
Authority granted in the National Defense Authorization Act for 
fiscal year 2006 was a very good start, and it reflects vision 
on the part of the Congress, and we welcome it. It allows the 
Departments of defense and state to work together to leverage 
the core competencies of both agencies.
    We are currently in the early stages of the implementation 
of 1206, and the two departments, I can tell you, are working 
together in an unprecedented way. While section 1206 was a 
start, we do think it needs some improvement. I can outline for 
you some of the key challenges that we have found in working 
with the authority.
    First is that the legislation limits us right now to 
national military forces when, in actuality, part of the 
struggle we face is dealing with a variety of security forces, 
gendarmerie, constabularies, internal security forces, border 
security forces. And those are some of the tasks that we face 
when we are out fighting the war on terror, and we need to 
expand the authority to include them.
    It has been mentioned--and I understand the reasons that 
both the Chairman and Mr. Skelton articulated for limiting us 
to defense-wide operations and maintenance funds--but that 
represents a small fraction of DOD operations funds and does 
limit our ability to use the authority. We recognize the issues 
that were identified by the Chairman and Mr. Skelton, but it 
would be helpful to have access to a broader range of O&M 
funds.
    Third, the authority is currently bounded by a number of 
foreign assistance restrictions and includes no waiver option 
for critical national security issues. We need some kind of 
waiver authority, either to be exercised by the President or 
the secretary of state as appropriate, in order to build the 
critical partnership capacity and use the authority in the way 
that we believe it was intended.
    We have been limited, of course, in the amount of the 
authority. And while I recognize the force of Congressman 
Skeleton's comment that this should be seen in some sense as a 
pilot project, which we are working through now, we would like 
to get the amount that we sought originally, in order to 
strengthen current preventative activities and also have some 
reserve in case of contingencies; because a great deal of what 
we are talking about is trying to deal with emergency 
situations not really foreseen in the normal budgetary process 
and cycle that we face.
    The current language speaks about joint State-DOD 
formulation and implementation of programs. And I think my 
colleague, John Hillen, will testify to the fact that we are, 
in point of fact, doing this in practice. We are working with 
our State colleagues to develop mutually agreeable proposals 
aimed at states in Southeast Asia, the Middle East, and Africa.
    However, the current authority requires a Presidential 
certification for each country, which is a time-consuming 
process that we are still undergoing. I think we would prefer a 
formulation that places authority at the secretarial level and 
works with the concurrence of the secretary of state.
    We have developed together, State and Defense, proposed 
changes to the 1206 authority. And the Office of Management and 
Budget has cleared this proposal for transmittal, and the 
Department of Defense has submitted it to the Congress for 
consideration.
    One of the issues that both the Chairman and Mr. Skelton 
raised was the question of renovating our foreign assistance 
program more broadly. And I think that is a worthy discussion. 
And I think that John and I, and I am sure General Jones from 
his perspective, will have some thoughts to share when we get 
into the discussion.
    But I would emphasize that this is going to be a lengthy 
process. We are dealing with a system that was basically put in 
place 50 years ago. And I note that Mr. Skelton mentioned that 
it may be the fact that that system is not necessarily the one 
that we ought or need to have in the current environment. I 
agree with that. But it is going to take some time to work 
through exactly what we need to do to change that.
    In the interim, I think we believe we need the changes to 
section 1206 that we have sought now, because if we cannot 
exercise this authority in the way that it was initially 
intended, I think it will impede our ability to enlist partners 
and our ability to reduce some of the stress on the force and 
the danger to our servicemen and -women as we go forward.
    Building partnership capacity is, I think, again to refer 
to something that both the Chairman and Mr. Skelton said, it is 
both a Title 10 and a Title 22 activity. And we think the 
current authority does give us a mechanism for establishing 
unity of effort between the two departments as we go forward. 
And there really is unprecedented cooperation going on in this 
area right now.
    Mr. Chairman, let me just summarize by saying, in the wake 
of the Soviet Union's collapse, a number of fragile states were 
left in place. For a long time we tended to look at this as a 
purely humanitarian issue and a humanitarian challenge. But I 
think we have come to realize over the last few years that 
fragile states and ungoverned areas are a potential breeding 
ground for terrorism and safe havens for terrorist 
organizations.
    The 1206 authority helps us to address that reality by 
leveraging and coordinating the strengths of both the 
departments of defense and state to build bipartisan capacity 
and help win the Global War on Terror, protect the lives of 
both our active duty forces and the national guard and reserves 
who are serving, those men and women overseas.
    So I really welcome the opportunity to address this whole 
set of issues with you this morning. I am grateful that you 
have held this hearing, and I look forward to further 
discussion and answering your questions.
    The Chairman. Mr. Ambassador, thank you for your opening 
statement.
    [The prepared statement of Ambassador Edelman can be found 
in the Appendix on page 39.]
    The Chairman. Dr. Hillen, good morning.

  STATEMENT OF DR. JOHN HILLEN, ASSISTANT SECRETARY OF STATE, 
        POLITICAL-MILITARY AFFAIRS, DEPARTMENT OF STATE

    Dr. Hillen. Thank you. Good morning, Mr. Chairman. And 
thank you and Mr. Skelton and members of the committee for the 
opportunity to testify before you today. I always welcome the 
chance to appear before the House Armed Services Committee. I 
think part of breaking the paradigm of the old way we looked at 
national security is for committees to feel free to get 
involved across the whole spectrum of national security 
agencies. We really welcome the chance for the State Department 
to appear in front of your committee, and thank you for your 
own leadership.
    And I also want to recognize Mr. Skelton, too. During my 
time as a military officer, and indeed now, I always return to 
his reading list for professional military education. And, Mr. 
Skelton, you should stop adding books to it, because every time 
I think I catch up to what you think people should be reading, 
another book pops on there. But you have been just influential 
in the development of a lot of military officers' careers.
    The Chairman. Someday we are going to give Mr. Skelton a 
test on those books.
    Dr. Hillen. Mr. Chairman, this is an interesting moment in 
time. You have here in front of you a former career military 
officer who is serving in the Department of State, and a career 
diplomat serving in the Department of Defense. And I think it 
not only says something about the way that our departments are 
working together these days, but also just about the nature of 
the security challenges we are talking about.
    This is a security environment that is animated by threats 
that come as much from the big bunches of uneducated youth in 
countries that can't provide for political and economic 
opportunity as it is from traditional military threats that are 
manifested in terms of formations and military maneuvers. And I 
think the set of things we are talking about today are 
important ways to get at this new environment.
    I will just briefly make a couple of points, Mr. Chairman, 
because I know you want to jump right into this. As you and Mr. 
Skelton mentioned, security assistance is such a critical 
foreign policy tool, especially these days, that allows the 
U.S. to advance its national security interests with our allies 
to our border goals and promoting key American values with 
respect to democracy, human rights, civilian rule of the 
military and so on. And, most importantly, security assistance 
increases the capacity of our military forces by providing the 
necessary funding and training to our coalition partners and 
friendly nations so that they can work toward common security 
goals and share burdens in joint missions.
    That is not just the coalition piece, I think we should 
point out, which is important. We have over 40 nations with us 
in Afghanistan, almost 30 in Iraq, and 63 nations in the 
coalition on the war on terror. But also, you know, as we 
recognized, our victory in Iraq and Afghanistan will depend 
upon the growing capacity and capabilities of the Iraqi 
military and the Iraqi police and the Afghan military and the 
Afghan police. We recognize that that is the key to victory.
    And the State Department, specifically my bureau, has the 
policy lead on developing and implementing security assistance. 
We do that through the foreign military financing program, the 
international military education and training program, and our 
peacekeeping operations. And I want to really emphasize 
Ambassador Edelman's comment that this is done together.
    At the end of the day, we have the authorities and the 
policy lead and responsibility. We build these things from the 
ground up. In fact, next week we will start a series of 
roundtables in which all of the combatant commands, the Office 
of the Secretary of Defense (OSD), joint staff, all of the 
regional bureaus of the State Department, development people 
from United States Agency for International Development 
(USAID), everybody is represented. We built these programs from 
the ground up together.
    But in addition to these three traditional capability 
building programs, the State Department welcomes the 
opportunity to work closely with our defense colleagues in 
formulating plans for using the 1206 train-and-equip authority.
    The State Department continues to support the new DOD 
authorities, such as 1206 and 1207, because these authorities 
augment the tools available to both secretaries to act quickly 
when unforeseen events or new opportunities make the initiation 
or expansion of a training, equipping, or advisory program 
necessary.
    And in the case of supporting select DOD authorities, the 
Administration is seeking to maximize the use of complementary 
resources and capabilities in various agencies in ways that 
will best serve the Administration's overall goals of providing 
comprehensive, integrated assistance. These authorities 
received a joint endorsement from the secretaries of state and 
defense, and are exactly the kind of flexible tools we need to 
win the long war.
    And I would just say, Mr. Chairman, it has been mentioned 
before, that the old authorities are perhaps slow and 
unresponsive. I would characterize them as deliberate. They 
happen within a context, a very deliberate foreign-policy 
context that takes in a lot of considerations, and they are 
very strategic. And that makes them at times, and because of 
the number of people involved and the democratic process 
surrounding them, makes them less flexible than we might need.
    And also, just to add a slightly different perspective on 
some of these authorities, I wouldn't necessarily call them 
ill-suited, but I would say with the challenge we are facing 
today they are partially suited. They get us some of the way 
there in addressing mostly our traditional security concerns, 
but for the new security concerns, more flexibility is indeed 
needed. And we hope that Congress will continue to lend its 
support to these and other flexible authorities requested by 
the Administration.
    I have been very personally joined in joint formulation and 
approval of the plans for using 1206 in fiscal year 2006, and 
we are getting to the point where we have some very solid plans 
that will go directly to helping us in the Global War on 
Terror. And state and DOD coordination throughout this process 
has been excellent, and we look forward to briefing this 
committee soon with our final proposals on those.
    And, Mr. Chairman, I will take you up on your opportunity 
to submit the rest of my statement for the record. But I just 
want to summarize by saying that I think that we have a 
terrific opportunity here to layer on top of some things we 
already do well, to continue to talk about reform of those, 
because we need to continuously challenge the status quo to 
stay one step ahead of the folks that would do us harm.
    We have a very adaptive observe, orient, decide, act (OODA) 
loop, if you remember that.
    Their decision cycle is flexible and adaptive. I think we 
need to continuously in our business challenge the status quo, 
so that we constantly have our men and women in the field and 
Americans back home prepared to have the sort of tools that we 
need, that our government can deploy to defend.
    And capacity building is one of the most important ones. I 
look forward to working through this whole set of issues with 
you and your committee. Thank you, Mr. Chairman.
    The Chairman. Thank you, Dr. Hillen.
    [The prepared statement of Dr. Hillen can be found in the 
Appendix on page 48.]
    The Chairman. General Jones, welcome back. It has not been 
long here. Thanks for your service to our country and the 
leadership you are providing now. And give us your perspective 
on this problem.

  STATEMENT OF GEN. JAMES L. JONES, COMMANDER, U.S. EUROPEAN 
                   COMMAND, U.S. MARINE CORPS

    General Jones. Mr. Chairman, thank you very much. It is 
indeed a pleasure to be back in front of this committee. And I 
certainly enjoyed the opportunity to testify just a few weeks 
ago. During that testimony, I alluded to the fact that in this 
very different world in which we live, it is going to be 
incumbent upon the United States, I think, as it wishes to 
continue to be a Nation of great influence and, obviously, to 
prevail in the battle of the asymmetric threats that face us--
not only nationally but collectively, internationally--to find 
the ways in which we can be more agile and more flexible in 
bringing our national goals to fruition.
    I think this 1206 legislation is one of those ways. But I 
think that we are going to have to adopt essentially a new way 
of looking at things and doing things in order to be fully 
competitive in the international playing field. And let me 
explain that just a bit.
    In the old days--and I would say the old days go back to 
not more than maybe 10 or 15 years ago--the United States was 
able to bring tremendous pressure on the behavior of different 
nations simply by withholding various types of assistance.
    In general terms, it seems to me that the easiest thing to 
do was to cut off military-to-military relations with somebody 
who wasn't behaving the way that we would like to have them 
behave.
    That may be the easiest thing to do, but it can be shown, I 
think in historical terms, that it might not be the most 
effective thing to do in terms of the long term if you look at 
our relations today with Pakistan and Indonesia, two countries 
that we virtually terminated mil-to-mil relationships with over 
policy disputes. It had the effect of essentially creating 
almost a generation of officers in those countries that have no 
ties with the United States.
    The other thing that I would say that has changed is that 
we are faced with--the nations that we deal with have more 
choices to make and can turn to other suppliers. And in my 
previous testimony, I think I mentioned the rise of China as a 
very active player in Africa, for example.
    Holding nations accountable to a certain standard of 
behavior is certainly something that the United States wants to 
continue. But at the same time, we also need to bring about new 
forms of assistance that we can bring to bear in short order, 
and not to wait months, in some cases years, to bring about 
programs that will help like-minded nations, willing nations, 
to assist us and to join us in the battle against our common 
threats and the international objectives that we have.
    I think it is particularly important for us and for our 
allies, in particular North Atlantic Treaty Organization 
(NATO)--I am also very active in the NATO transformation--but 
it is very important to understand how crucial it is to be 
proactive in our engagement, as opposed to reactive.
    And while you cannot be everywhere nationally, with the 
interlocking relationships that we have of like-minded nations, 
both developed and undeveloped, we are seeing the proactive 
engagements, such as in Georgia, train and equip; such as in 
the Trans-Sahara Counterterrorism Initiative; perhaps some new 
initiatives in the Gulf of Guinea to prevent greater problems 
in the future.
    Proactive engagement is always cheaper than reactive 
engagement. And we are seeing in the NATO organization, an 
organization that is moving to be more proactive earlier, so 
that we can prevent and deter future conflicts, which are 
always much more expensive and much more longer lasting.
    So I think there is great value in being able to have the 
capability to be agile and flexible. As a combatant commander 
now with about three years under my belt, I can tell you that I 
feel like I have all of the responsibility I need, but I have 
very little authority over resources.
    And as I look back at the maze of the programs that we have 
and interlocking bands of discussions that have to go on to 
start a program from concept to fruition in almost anything 
that we do, I worry that over time we are becoming very hard to 
work with, harder to work with than perhaps our competition. 
And we will see increasing instances of countries basically 
saying this is too hard and I can get what I need from somebody 
else a lot easier.
    So it is something that I think we need to address, I think 
we need to think about. This 1206 legislation is a good step. I 
think it is a good test. And we should watch it carefully and 
make sure that it has its intended effect. I think it will.
    I think the programs that I know from the European Command, 
we have submitted for consideration ours, which will be 
immediately useful. I think I mentioned to the committee the 
last time that one of the great things that is going on in the 
North African, sub-Saharan African region right now is that we 
are, for a very, very little amount of investment, actually 
making a huge contribution by helping those governments help 
themselves to understand what is going on in their borders to 
prevent the spread of terrorism and the recruiting that is 
going on. And using our limited assets, but to great effect, we 
are actually having a strategic change, in my opinion, in the 
way that that section of the Islamic world perceives the United 
States. Things are changing dramatically.
    We are building new friends, new partnerships, and we are 
doing it for an amazingly low amount of investment. This is 
what I mean by proactive engagement with our like-minded 
nations.
    The cost of providing United States battalions for the 
Georgian battalions that we trained, I would submit again, 
another modest amount of money. The cost of the United States 
battalions that would have had to take the places of the 
Georgian battalions that are coming on line would be much more 
expensive. So I see it as a type of program that buys insurance 
and that allows us to help others help themselves at a faster 
rate.
    And I would also use another example where how you control 
your resources is critically important. I think one of the 
critically important things that happened in Afghanistan is 
empowering our provincial reconstruction team commanders to 
have the power and the authority to do things, to do things 
that are good for the people, that are immediately visible, and 
the provincial reconstruction team commander in Afghanistan is 
a very important person and important to the people, important 
to the region. It is the most visible expression of commitment, 
because he has the authority to do things on the spot. And I 
think if we gradually migrated over to an attitude of 
centralized planning with more decentralized execution, all of 
the oversight that is required, that goes without saying, I 
believe that we can achieve a lot more in the global playing 
field in this asymmetric world than we are currently achieving, 
simply because we have not adjusted our systems for about 45 
years.
    So I am delighted to be here to talk about this, Mr. 
Chairman. It is a great honor to be with you. I look forward to 
our discussions. Thank you.
    The Chairman. Without objection, all written statements 
will be taken into the record. Thank you, General Jones, for 
your statement.
    [The prepared statement of General Jones can be found in 
the Appendix on page 55.]
    The Chairman. We will go into a classified briefing status 
at the end of our open questions. At that point we will clear 
the room. We will ask any--we may have a few classified 
questions. So if you have got them, tee up your open questions 
for this period.
    And let me just ask one quick question and move on to my 
colleagues.
    General Jones, the reset costs for the U.S. Marine Corps, 
an organization for which you have some empathy, have been 
estimated at around $12 billion. If you get $10 billion out of 
a combination of supplementals and a base bill, and you are a 
little light, and you have a chance of getting another billion 
or $2, which otherwise might go to train and equip, and you 
look across the aisle and you see the State Department with a 
$4.8 billion account for train and equip, what are your 
druthers? Wouldn't you rather see the State Department pick up 
the tab and let you--let the U.S. fighting forces get that 
reset money?
    General Jones. Well, I think that obviously these either/or 
situations are hard to answer. If the commandant were sitting 
here, I know exactly what he would say, and I know what I would 
say in his position.
    I think we have to find the agility, frankly, to do both. I 
think it is that important. And I think that the role that the 
United States plays in the world, and the role that the United 
States plays in investing correctly in the these nations that 
are struggling to move toward democracy, if we are successful 
in that venture, that is probably a country where we might not 
to have to fight in the future.
    The Chairman. I think we all stipulate to that. The 
empowerment of forces, training and equipping allied forces to 
fight the war against terrorists makes sense. Let's all 
stipulate to that.
    Now, the question is, who picks up the tab? Certainly 
training and equipping another country's forces is a--what 
would traditionally be considered to be a specie, if you will, 
of foreign aid. It is aid to another country. It is not money 
that goes directly into the equipage of the Army, Air Force, 
Navy, Marine Corps.
    So, stipulating to the fact that we need to train and 
equip, and that that is good for us, and that that is in our 
long-term interest, wouldn't you rather see the State 
Department pick up the tab for that than the Department of 
Defense, which is going to be strapped coming out of these 
warfighting theaters?
    General Jones. Certainly. I am not trying to be evasive, 
Mr. Chairman. But from where I look at the world, what I would 
like to see, if I were king for a day, is to try to see more 
symmetry and more simplicity in how we are organized.
    Who pays for it is--it is the same--the American taxpayer 
is providing the money. But if I look at the matrix that we 
have to deal with, from Title 10 to Title 22, and the 
complicated aspect and the overlapping aspects of both of these 
programs, it is very tough for me to say it should be the State 
Department or the Defense Department.
    We need some agility in our programs and some simplicity 
that seems to be lacking, to me, from where I am sitting right 
now.
    The Chairman. Dr. Hillen, what do you think? Wouldn't you 
folks rather pay for this than take it out of the military 
hide?
    Dr. Hillen. Well, Mr. Chairman, you know I would love to 
answer the call from General Jones and say, ``I got it for 
you,'' not only because he is much bigger than I am, but we 
like helping our folks in the field.
    You know the Secretary's frustration with security 
assistance, and of course you know she is making some pretty 
bold moves on the foreign assistance in general with the new 
appointment of a director of foreign assistance, whose agenda 
is a reform agenda. But just over the years, it has become not 
a very discretionary tool. About 94 percent of foreign military 
financing is earmarked these days. In fiscal year 2005, 100 
percent of it was earmarked. We need to continue to work with 
our colleagues in both houses on the hill to see how 
discretionary and flexible we can make these tools.
    And so when you look at what we have there, and it has 
seemed over the course of time and the pedigree of these 
programs over the past, really generation of these programs, it 
seems harder to stop them than to start them. And they get 
momentum. And they get put into law. And they get put into 
practice, and there are powerful rationale and constituencies 
for continuing them, and then when we need the flexibility to 
react quickly, respond in the field to commanders on the 
ground--I just got back from Afghanistan, and a commander on 
the ground needed to deploy some train-and-equip authority, 
foreign assistance tool--in that existing process, a long-term, 
deliberate, strategic process, we do not have the flexibility 
to respond quickly to answer that call for those needs.
    This allows, this sort of authorities allow us together, 
state and defense, with concurrence of both Departments, to be 
able to respond with more flexibility. I think over the long 
term here, you are absolutely right; we have to find 
flexibility and reform it within the system. But at this point 
in the time now, we definitely need some interim solutions that 
allow us to support what is going on out in the field.
    The Chairman. Okay. Ambassador, thank you also for being 
with us. Stipulating that we need to have agility, flexibility, 
and the train-and-equip makes sense, wouldn't you like to see 
the State Department pay for these programs?
    Ambassador Edelman. Mr. Chairman, I largely agree with my 
colleague, John Hillen. In an ideal world, we would want a 
foreign assistance system that enabled us to move quickly to do 
this. We do not have that right now. We face some immediate 
challenges. And I think these authorities allow us to fill the 
gap, if you will, that exists in our ability to respond 
quickly.
    The other point I would make, I think it was explicit in 
what General Jones said, is that these moneys are highly 
leveraged. I mean, there is an enormous benefit.
    The Chairman. That is true. But they would be highly 
leveraged if they came from the State Department as well as 
DOD. They would not lose their leverage.
    Ambassador Edelman. I agree, sir. I was just making the 
point that as you look at the trade-offs, and we always have to 
look at trade-offs, there is high leverage, and high leverage 
for the Department of Defense as well, because of the 
additional capacity that gets brought to bear; or, as General 
Jones was saying, the better border security.
    The Chairman. Sure. Okay. Thank you.
    The gentleman from Missouri.
    Mr. Skelton. Mr. Chairman, thank you.
    General Jones, you mentioned the importance of military-to-
military contact. And I have witnessed this, particularly in 
the professional military education arena, but not limited to 
that. And you gave us an example of the fact that a whole 
generation of Pakistani officers have had no contact with ours, 
because we cut off military-to-military contact.
    What test would you suggest that a nation should meet in 
order to have military-to-military contact, or exchange, or 
whatever the form might be, in the event that there are policy 
differences. In the old days as you termed, 10 to 15 years ago, 
we would just cut it off?
    Would you have a different standard or a different test for 
our military contacts, because they are so very important? I 
know this, and I think everyone realizes that. Do you have a 
suggestion?
    General Jones. Well, I think it is situational, sir. I 
think we just have to be very careful about the law of 
unintended consequences. It seems to me that it is a very easy 
thing to do. And it seems to be the first recourse that we tend 
to pull out of our bag, saying, okay we are cutting off mil-to-
mil contacts.
    And sometimes--not always but sometimes--that just 
reinforces the behavior that we are trying to change. In other 
words, if it is a military problem, and if the military is 
behaving badly--for instance, in human rights and the like 
inside a nation, and there are circumstances that are clearly 
beyond the pale, then I think we have to measure the actions 
that we take against the behavior we are trying to modify.
    But in the meantime, I think if a nation is generally 
progressing, if we are teaching and helping nations develop 
militaries that act in support of human rights, the defense of 
democratically elected institutions, and have a willingness to 
work with us and seek out our leadership and our assistance, 
then these are good things.
    And we have seen quite a few years in the world where the 
consistent application of relationship on the military-to-
military basis has really changed the landscape for us. So I 
think the standards will be developed nation by nation.
    I would just simply say that sometimes the easiest thing to 
do, which is to basically alter military-to-military 
relationships, sometimes in the long term may not work out 
quite the way we intend it to be. So I would just caution 
against using it too quickly.
    Mr. Skelton. Thank you.
    Mr. Ambassador, let me ask you, what are your plans to use 
the authorities we gave you in section 1206? Of the $200 
million that we authorized, how much has been allocated for 
projects thus far?
    Ambassador Edelman. Mr. Skelton, we are working our way 
through that, as I mentioned, with the Department of State now. 
My hesitance in specifying exactly what we are doing goes to 
the issue of the requirement that we have to get a Presidential 
certification. And we have not yet moved to the White House the 
list of projects that Secretary Hillen and I and our respective 
staffs have been working on.
    We have projects, I believe, right now that will be close 
to the $100 million mark, that we are preparing to move 
forward. And because I do not want to presume on the 
President's decision-making authority, I would not want to get 
into specifics. But I can tell you that they are broadly in 
geographic areas that one might expect: the Middle East, 
Africa, and the Asia-Pacific area, and that they go to a lot of 
counterterrorism-capability building, maritime security 
efforts, border security efforts, et cetera.
    But because the President has not even seen these yet, I 
wouldn't want to go further and comment on it.
    Mr. Skelton. My recollection is there was a request for 
some $700- or $750 million before. What would you have used 
that money for had we given it to you?
    Ambassador Edelman. Congressman Skelton, I think our 
judgment is--well, let me back up one second. The way we have 
approached the $200 million has been to solicit, from General 
Jones and the other combatant commanders, proposals; and then 
worked with policy folks at state, working through their 
embassies and our side, to prioritize and reach agreement on 
the proposals.
    I believe it is our judgment from what we have seen from 
the combatant commanders that we could get up to $750 million 
in projects. What we have been doing initially is getting a set 
of priorities.
    But I believe if we had the $750 million authority, we 
could execute it, if given the time.
    Mr. Skelton. Thank you, Mr. Chairman.
    The Chairman. The gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Mr. Chairman, I would just like to say, before I ask a 
question, that I support the concepts embodied in the 1206 
section provisions, and I guess I would just like to say why. 
It just seems to me that as we live and work in the world we 
live in today, our military leaders have recognized the way we 
need to do business.
    In the Marine Corps services, in all the services, for 
example, we spend a lot of time training our military folks who 
deploy in language skills. We train them in cultural awareness, 
and we train them to, in effect, be ambassadors more so than 
any time, any time in history. Military folks have always been 
ambassadors, but it is perhaps more important today than it 
ever has been because of the nature of the fight that exists in 
the Middle East and the potential for activities in other parts 
of the world.
    So, it seems to me that military-to-military contact with 
other peoples is extremely important. To the extent that we can 
foster those, I think, through the military, we ought to be 
doing it.
    To a great extent we have been successful. My observations, 
in having been to theater several times, I remember spending a 
day with General Petraeus early in the training process in 
Iraq, and he was proud of what he was doing, but, more 
importantly, the people, the Iraqis that he was training, were 
more proud of what they were doing. And I remember seeing the 
skill level exhibited by the Iraqis who, back in the early 
days, after having watched our soldiers train and carry out 
operations, and watching the level of capability that the 
Iraqis had back then, I thought, I hope they progress.
    Sometime later, when I visited the Iraqi troops in Balad, I 
saw a tremendous difference, and people who were very proud of 
the progress that they had made as a result of our military-to-
military training, and it was something that I think was very 
important. I will tell you, the reason I think it is so 
important is because every American, every one of my 
constituents, and every American that I know wants our soldiers 
to come home, and the only way we are going to do that is by 
having Iraqis who participate in their government and who 
participate in their national security.
    There is no more important mission today in Iraq or 
Afghanistan than training indigenous folks to take care of 
their country and to take care of themselves. So this is not a 
question for me. I believe this is extremely important and a 
program that I support fully.
    Here is the problem, here is what is on the Chairman's 
mind, on both of our minds. In the 1960's, we peaked our 
military funding at nine percent of the gross domestic product 
(GDP). In the 1980's, during the Reagan military buildup, we 
peaked our military spending at six percent of GDP. What is on 
our mind today is that we are at 3.9 percent in this long war; 
3.9 percent of GDP is what we are spending on all the 
activities in the Department of Defense.
    So what is on the Chairman's mind is how can we afford to 
do this? He and I have a little bit of different perspective on 
it, perhaps, because I think it is extremely important. I think 
it is probably the most important thing we have to do to get 
our folks home. But that doesn't change the fact that we are 
strapped at 3.9 percent of GDP on military spending. It seems 
to me that the funding aspect of this is extremely important.
    I am going to support these provisions, and I think they 
are important. I guess I would just ask this question: are we 
looking for ways to share this burden with the State 
Department, or how are we going to move forward so that we can 
carry out all the traditional military missions we have, and 
this new mission, which is so important, as I think I have 
expressed?
    Ambassador Edelman. Mr. Saxton, if I could, I would be 
happy to take a whack at that one. First, I agree with you 
completely about the observations you made about Iraq. From a 
personal point of view, it also corresponds to my experience 
when I was there in October and met with General Dempsey and 
some of the Iraqi security forces. I couldn't agree with you 
more, and I completely agree that is the way to bring our folks 
home.
    On the broader question, I would say that in an ideal 
world, much of this activity would move to the Department of 
State and--in a system that is reformed, as John Hillen said, 
Secretary Rice, I think, very much has this on her mind. I know 
that Randall Tobias, the new head of the Agency for 
International Development, who now carries the title of 
director for foreign assistance, has this on his mind.
    I have met with Ambassador Tobias. We have talked about 
this. I think this is something, going forward that he will be 
looking at very hard. I think the problems that we face go to 
the issue that you mentioned about level of national effort and 
making sure that we have adequate funding across the board for 
all these activities.
    As John mentioned, it is very difficult for him and for 
Deputy Secretary Zoellick and for Under Secretary Joseph and 
for Secretary Rice to effect effectively address some of these 
crucial things that come up on short notice if they have 100 
percent of their foreign military financing (FMF) budget 
earmarked, and there is no discretionary monies available.
    We will face down the road--and I think it is worth 
mentioning--as we look to complete the training of the Iraqi 
security forces and the Afghan security forces, the difficult 
issue of how do we sustain the enormous investment we have made 
in both blood and treasure in the lives of the folks who have 
perished in this effort over a period of time.
    That is going to require resources, and it is going to 
require, as we move away from the train and equip mission, to 
more classical security assistance mission. Large amounts of 
money, at the current levels they have of discretionary 
funding, would dwarf what is in the budget. We are working our 
way through that. We are going to have to try to figure out 
what the answers are on that.
    On the broader question of are we working together with the 
Department of State, the answer is, yes, we are. Even as we 
speak, our colleagues, John's and mine, at state and defense 
are finishing up a conference that we had at National Defense 
University (NDU) the last couple of days to look at how do we 
make sure that the security cooperation activities that General 
Jones and his colleagues among the combatant commanders are 
conducting as part of their regular activity, guided by the 
secretary of defense's security cooperation guidance, are 
moving in the same direction and the same strategy and getting 
the maximum benefit for the U.S. taxpayer that John and his 
colleagues are doing through the FMF, foreign military sales 
(FMS) and international military education and training (IMET) 
processes.
    I am sorry that Mr. Skelton isn't here, but just as an 
unsolicited advertisement for IMET, as a two-time ambassador I 
will tell you if you polled my ambassadorial colleagues, I 
think they will say that there probably is no more highly 
leveraged asset in the IMET program. It does pay dividends into 
the future. General Jones mentioned the lost generations in 
Pakistan and Indonesia.
    So the answer is we are working together to try and make 
sure that we are doing the right things, together as agencies, 
and to work more cooperatively, and to get the burden allocated 
appropriately. But we do have this time period we are going to 
face. I cannot tell you at this stage how long it will be, 
because it is to some degree dependent on how long it takes to 
reform the overall foreign assistance process. But we will face 
some time where we will need to be as flexible and agile as our 
opponent is.
    Mr. Saxton. Mr. Chairman, my time has expired. I would just 
make one final observation. John Kline and I had an opportunity 
last evening to spend some time with a great Marine whose name 
is G.I. Wilson, a colonel who has been deployed in Iraq twice. 
If he were here and able to be part of this conversation, he 
would also say there is no more important thing in developing 
relationships with the Iraqis.
    In fact, he has been dinging at me to go back to Iraq, and 
he wants to go with me so he can introduce me to the people, to 
the Iraqis that he had contact with that he had an influence 
on, and obviously they had an influence on him as well.
    So these personal relationships that are developed with 
military-to-military and military-to-civilian contact in 
theater are extremely important. I just think that we need to 
move forward with that understanding. Thank you.
    The Chairman. I thank the gentleman.
    The gentlelady from California, Mrs. Davis.
    Ms. Davis of California. Thank you, Mr. Chairman.
    General Jones, it is always good to see you, Mr. Ambassador 
and Dr. Hillen.
    I particularly--Dr. Hillen, I just wanted to thank you for 
your appearance before our small committee, the committee on 
QDR. I know you had just taken on your role at that time. I 
appreciate your comments very much.
    In light of that, I wonder if you could help us understand 
a little bit more the implications for our foreign policy in 
the context of section 1206 assistance. I appreciate the fact 
that you have been at the Pentagon, and, ambassador, you also 
have shared roles. I think it is important that occur. Yet we 
know that there is a different complexity perhaps. There is a 
reason why we have a State Department. I think we would all 
agree on that.
    What do you see, then, in terms of the real implications of 
this policy from your point of view, and are there some aspects 
that, in fact, the State Department might be ceding over to the 
Pentagon here, and what would your concerns be about that?
    Dr. Hillen. Thank you, Mrs. Davis. I appreciate the 
question. It gets right to the heart of one of the major 
matters here. Our secretary of state wouldn't have signed up 
for the first letter on a page of this agreement or any other 
agreement if she didn't feel that this was all going to be 
conducted within the context of foreign policy that she and her 
successors are responsible for. That is important to note.
    Security assistance is assistance, it is foreign 
assistance, as the Chairman pointed out, and that is the 
responsibility of the Department of State. She is very firm on 
that. The mechanism that we have worked out between the two 
departments for concurrence effectively gives the State 
Department and secretary of state veto power over the 
application of 1206 funds.
    Her guidance--and, once again, she has got a very long view 
of this. It is important that it not be personality-driven by 
the current personalities, but it is something that if it 
endures is a legitimate tool for her successor and on and on. 
Her guidance is that we have some restrictions with an 
inflexible system right now. We want to be able to answer the 
calls from the combatant commanders and be able to provide 
resources quickly in these general directions.
    If we can find a mechanism working with our colleagues at 
DOD, these other resources in concert with them to do that, and 
we are involved in the decision process early and often and 
ultimately with concurrence, then we are making the decisions. 
You can even look at it as we make the decisions about a core 
capability of ours with somebody else's resources, which is a 
good thing for us.
    Ms. Davis of California. Could you perhaps, really, in the 
short amount of time that you all have been working with us, 
just give us an example of where that has worked really well, 
and where, in fact, you think it hasn't?
    Dr. Hillen. We haven't seen it yet. We have disagreed on 
some proposals. We have disagreed on perhaps the scale and 
breadth of some of the proposals. For instance, when we started 
looked at and we started the processes, sort of working through 
the proposals that we were going to soon place in front of the 
President for where we would spend 1206 money this year, there 
were healthy disagreements about policy, about law, about 
priority, about the impact on other things, and we did it all 
within a very, very large foreign policy-driven context.
    Both sides have--as I said, both sides have implicit veto 
authority, and we worked through some of it all. It was a good 
exercise just in general for planning, but it was also, I 
think, a pretty dramatic manifestation of a recognition that 
the nature of the security challenges today means that we are 
all in the national security business. Development people are 
doing national security. People doing the pandemic of AIDS are 
doing national security. Migration specialists are doing 
national security.
    Our projects--as the ambassador said, these projects that 
we hope the President will approve will be in front of the 
Congress soon. I think you will see we are very oriented on 
near-term opportunities on the Global War on Terror in 
ungoverned spaces, in critical places to make a critical 
security impact tomorrow. Our deliberate long-term strategic 
system through which we usually run the security process, the 
State Department can't work quickly enough to give us that kind 
of flexibility.
    Ms. Davis of California. Thank you. I appreciate that. I 
think from--on the discussion we had before as well, I became 
sensitive to the idea that in the military we certainly have 
people who have trained longer and have a certain agility and 
staying power out in the field that, in fact, the State 
Department does not have. I know that the Secretary is working 
with those realities, and that, I would think, is also going to 
be an important factor in the ability to complement one another 
in a more forceful way.
    Dr. Hillen. You know her. She is not shy, and she is 
invested in this process, and she feels confident that her 
authorities are not only not being infringed upon, she thinks 
her authorities have grown by the ability to work with another 
department and things that we are planning and approving.
    Ms. Davis of California. Thank you.
    Thank you, Mr. Chairman. I was going to ask a question of 
General Jones, but perhaps we will have time later.
    The Chairman. Go right ahead. We can take one more 
question.
    Ms. Davis of California. General, I wonder if you could 
speak briefly on why we shouldn't focus more of our efforts on 
getting authority and funding for nonmilitary training and 
equipping rather than the military necessarily taking on the 
task of training foreign police forces as opposed to military 
forces.
    General Jones. Well, I think that there is certainly going 
to be some aspects of our total involvement that are going to 
call for diverse types of training. It is not--we are not in a 
world where one size fits all.
    For example, one of the best results in Afghanistan has 
been the U.S. leadership in training the Afghanistan Army. One 
of the colors it is trailing has been the development of the 
police force, which is currently under the leadership of 
another country. But the way ahead in Afghanistan is to 
obviously continuing the Afghan Army, but to bring up the other 
pillars of that society that also have to do well, and that is 
judicial reforms, the training of the police force, and 
obviously beginning to have some impact on the dependency on 
narcotics and the impact that has on the Afghan economy.
    So I do think in many countries the training police is 
going to be very important. How we do that, who does that is 
very important, and how we pay for it has to be discussed.
    But I would not rule out that having some aspect of 
military cooperation will border into some other areas, because 
you cannot treat these things as stovepipes and pretend they 
don't exist. One of the interesting evolutions in NATO, for 
example, as we go into Afghanistan, my authorities--which were 
previously nonexistent in the world of narcotics--NATO is going 
to have a passive role, but nonetheless an evolving role, in 
making sure that the efforts in countering narcotics we do have 
overwatch responsibilities, we do have information-sharing 
responsibilities, we do have awareness responsibilities to try 
to make this a success. Those words are now in the operational 
plan.
    So I think it is extremely important to have the 
flexibility to do the right thing and to bring the elements of 
national power to bear in those regions and at the time when it 
is critically required in this flexibility. The flexibilities 
that we can get to do that means that we will have, I think, a 
more rapid response and an earlier achievement of our goals.
    Ms. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    The gentleman from Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen. I hate to admit that I am as confused 
as I am about who is paying for what and doing what to whom and 
what 1206 is going to do about all of that. So we don't have 
much time, but I am wondering if we could use the example--
General, I will start with you--on the Trans-Saharan Initiative 
that you have got going on. There was a lot going on there, but 
certainly there is some training and equipping that is going 
on.
    Could you, in a sort of scrunched-down version, sort of 
tell us how that works now, who is paying for what? You have 
got some limited number of forces, and we have, as you pointed 
out, a limited number of assets we are spending to great 
effect, and perhaps when we get in the classified version, we 
can talk about some detail. But just in general, how is that 
working now? How are your forces that are there, or that work 
with the country team and the ambassador--who is paying for 
what? I am not limited to General Jones, I am just starting 
with General Jones.
    General Jones. Well, TSCTI was a product of the work of the 
European Command going back a few years that started out in 
fiscal year 2005 with about a small $6.8 million investment.
    Mr. Kline. Defense money.
    General Jones. Yes.
    Mr. Kline. Or State.
    General Jones. It has migrated into--we have seen the power 
of these small initiatives scattered over five different 
nations in the trans-Sahara region, specifically Algeria, Chad, 
Morocco, Senegal, and Tunisia. It is kind of a multiyear 
strategy aimed at assisting these nations in preventing efforts 
by terrorist organizations from getting a foothold in their 
regions and creating sanctuaries in the region called the Pan-
Sahel and the Maghreb. So what we are trying to do is 
institutionalize the regional cooperation along their security 
forces, and obviously to support the democratic governance and 
to discredit the terrorist ideology.
    To do that, we believe that if we can get the authority to 
link these nations together on this common issue--the one thing 
that is really striking in all of these countries is that they 
are absolutely convinced that they need help in understanding 
what is going on in their regions. So with the flexibility this 
legislation gives us, we are able to apply the remedies to the 
intelligence, to the information sharing, to the capacity 
building, the training of the armed forces, where it is needed 
and how it is needed, and will bring about a-- I think a 
tremendous capability that will grow.
    It doesn't mean that the U.S. has to get in there and do it 
for them. This is a program that is helping other nations help 
themselves. At the end of the day, I think upstream does shift 
in not only previous relations bilaterally with the United 
States, but also collectively in the region as they come 
together to prevent the spread of radical fundamentalism and 
the current trends of activities going in either ungoverned 
spaces or misgoverned spaces that they can't control.
    Mr. Kline. I see the time is about to expire, but to make 
sure I understand, you are doing this, you have got a trans-
Saharan view of this, but you are doing this, ambassador by 
ambassador, country team by country team.
    General Jones. Yes.
    Mr. Kline. You are spending defense dollars in this effort, 
DOD dollars.
    General Jones. In the main.
    Mr. Kline. Yes.
    Dr. Hillen. Congressman, I would just also point out we are 
also spending state dollars. For instance, in some of the 
participating--I think in all of the participating countries, 
for most of them we have IMET going, International Military 
Education Training, which contributes, but is not core, into 
the counterterrorism program, but certainly a big part of it.
    We have foreign military financing with some of them, and 
we have peacekeeping dollars in these three accounts, but it 
sort of sums up the problem. We are contributing a set of tools 
for a world that no longer exists. We are able to play as we 
can on the fringes of this, but the new tools will be needed to 
pull it all together and get a completely coherent set of 
funding streams for something like that initiative.
    Mr. Kline. Ambassador.
    Ambassador Edelman. Congressman Kline, just two 
observations. One, if you are confused----
    Mr. Kline. Oh, I am.
    Mr. Edelman [continuing]. I think you can be forgiven for 
being confused because the situation is confused in the sense 
that we do have lots of overlapping and sometimes duplicative 
authorities in certain areas, and absence of authority in 
others, because the system has grown by accretion over the 
years. Some are AID authorities, some fall into Dr. Hillen's 
domain, and some are ours. So there is some confusion.
    The other two observations I would make about this is you 
have put your finger on another piece of the difficulty, and I 
speak now from having now been in defense for my second tour, 
but having spent--now in my 27th year as a foreign service 
officer. We in the Department of Defense are organized and our 
combatant commanders are organized to take a regional look at 
these problems as manifested in this initiative.
    The Department of State has been organized and has, in the 
main, done its business on the basis of maintaining and 
managing a set of bilateral nation-to-nation relationships. 
There is a bit of a different focus, and there is a difficulty 
in bringing to bear, as Dr. Hillen was just saying, the tools 
that have been developed to deal with that approach to the kind 
of approach that General Jones and his colleagues at U.S. 
European Command (EUCOM) have tried to bear on this problem in 
the trans-Sahel region.
    Part of what we are attempting to do is to bring these 
things together. I think when we are at the point when the 1206 
cases that we are working our way through come to you, you will 
see that we are trying to actually in that authority bridge 
this gap a little bit. That is a part, I think, of what we are 
trying to do.
    General Jones. If I could just come back to, because I 
think I want to clarify that answer I gave you. Let me take 
fiscal year 2005 as an example, which is $6.8 million. Five 
million dollars of that came from Title 10 funding, which is 
DOD. An additional $1.75 million came from counternarcotics 
funding, and $5 million in Title 22 funding was received from 
the Department of State.
    So it comes--it always comes--if you look out in fiscal 
year 2008 to 2013, you have Title 10 and Title 22 funding 
requests that will come from both sides of both organizations, 
both State and DOD.
    Mr. Kline. Thank you very much.
    Thanks, Mr. Chairman.
    The Chairman. I thank the gentleman. The gentleman from 
Texas, Mr. Reyes.
    Mr. Reyes. Thank you, gentlemen. It is good to welcome 
General Jones again. I want to thank you for your hospitality 
last December and a great opportunity to talk about the issues 
and changes in NATO.
    In this new edition of the National Journal, Mr. Chairman, 
there is a great article in here called ``The New Face of 
NATO.'' We had a number of those discussions, if you recall, 
that evening that you hosted us.
    There are a couple of things I want to read from the 
article that I think speak to the--maybe if not to the 
confusion, but to maybe the concerns that we ought to have when 
we have--as what is quoted in a recent article from the State 
Department. A gentleman said, in the longer run, we need to 
have our assistance structured in a way that will give us even 
broader flexibility.
    The President and his advisers must be able to devise a 
program that can allocate money as needed among whatever 
agencies have the skill sets to deliver the capabilities, 
whether it is state, defense, justice, or other government 
agencies, which, you know, I agree that we are in a new world, 
and we face new challenges. We have got to have, in some 
respects, greater flexibility. But in some cases, when we look 
back historically, and I am thinking about the 1980's, with the 
Central American issue with the contras and the things that 
went on there, the restrictions and the limitations are there, 
I think, for a very good reason.
    Before we change those, before we give this flexibility 
that is being argued for, I think we need to fully understand. 
This gets back to the comment of my colleague, when he sees 
there is a lot of confusion.
    That--having said that, in this article, General Jones, 
that is in the National Journal, I want to read from it, 
because I would like to have you comment on the changes that 
you have seen since you have been there, which have been great. 
I mean, we had a great discussion that evening and last 
December. So, let me just read a part of it and bring this 
issue to the perspective that I would like for us to have your 
feedback on.
    It says, and I will start here, it is quoting you, general, 
I can tell you, when I arrived at NATO, the only operation 
really on the agenda was the Balkans, and no one really was 
even talking about Afghanistan.
    Now, three years later, NATO is about to undertake the most 
ambitious and difficult mission in Afghanistan and at great 
strategic distance with many challenges. As long as we keep in 
mind that this is a challenging mission with an element of 
risk, I think NATO has the political will and the military 
capability to succeed. Although Afghanistan remains NATO's 
number one priority at present, a visit to the Strategic 
Direction Center of Supreme Headquarters Allied Powers, Europe 
(SHAPE) in Mons, Belgium, underscores Jones' points that the 
alliances and divisions stretch much farther. Video and 
computer screens in the center provide windows into NATO 
missions on five continents, including peacekeeping in Kosovo, 
maritime counterterrorism operations in the Mediterranean, 
logistical assistance to African Union peacekeepers in Darfur, 
an officer training program in Iraq, and a recently completed 
disaster relief effort in Pakistan.
    There is a curious divergence in Europe right now, and 
within NATO itself, General Jones stated. As we have clearly 
seen over the last three years, there is a political will for 
the alliance to do much more, but there is an equal and 
offsetting political desire to cut defense budgets. At some 
point, if we don't reconcile those impulses, there is a train 
wreck out there waiting to happen.
    At the same time there is a dramatic change in the mind-set 
and the culture under way. NATO is truly at a historic 
crossroads, and I think it is starting to choose the right 
path. If the alliance can accomplish everything that is now on 
its agenda, it will be a defining moment and a tremendous 
relief for the United States as NATO comes on line as an even 
stronger partner.
    So, having, you know, five minutes is never long enough.
    Having read from that, General, let me just tell you, I 
support and I applaud the changes, because I think a lot of it 
has to do with your leadership and your ability to convince 
NATO to come around to these priorities.
    But the concern I have, given your statement about the 
issue of the political will for the alliance to do much more, 
about an equal and offsetting and political desire to cut 
defense budgets, and the train wreck that you cite--we are 
seeing some of that now here on Capitol Hill when we are 
looking at the cost of Army transformation, the cost of new 
weapons systems, the way procurement systems are running and 
that kind of thing with the far side of the deficits that are 
mounting.
    So, with the agenda that NATO is--has on its plate at this 
point, that is a real concern and should be a real concern for 
us that there may be in there some expectation that we are 
going to pick up some of that tab.
    When they want to expand the ability to help us because of 
the changing world and because of the new challenges that we 
face, and we are seeing everybody coming in here and quoted as 
wanting more flexibility, the concern I would have is who is 
going to pick up the tab? We certainly don't have the deep 
pockets that we had when we were projecting surpluses five 
years ago. Now we are in record deficit, in a record deficit 
situation.
    So I would like--can you comment on that, and, in 
particular, what is your sense about their political will 
versus the reality of having to pay for some of these 
aggressive agendas?
    General Jones. Thank you, sir. Thank you for your kind 
words.
    I will try to be very brief. This is a dual problem. On the 
one hand, at NATO you do have this enormous political will to 
do more, 30,000 troops deployed on several continents, some 
very important missions. This is a critical time for NATO. I 
think NATO is at a strategic crossroads, and I believe that it 
will take the right path, notwithstanding the fact that we do 
have some financial problems in getting nations to adhere to 
the two percent of GDP that was the minimum agreed to in 2002.
    Having said that, I think nations realize it, they 
understand it. I am hopeful that they will understand that you 
can't, on the one hand, continue to expand your missions and, 
on the other hand, continue to contract your budgets.
    I think there is also a question inside of NATO, that the 
secretary general is currently leading, to reform the way in 
which we do manage the budgets that we do have, how we spend 
our money, where does it go, and are we, in fact, doing the 
right thing. That is another aspect of transformation.
    But the good news for the United States is there is this 
momentum in the right direction. We should not only support it, 
but I think we should continue to be actively leading it.
    As you know, the percentage that the United States 
contributes to NATO is roughly about 27 percent of the budget 
and the manpower that is the generally accepted contribution 
level, and that is not changing one way or another. So what we 
need to do is hold what we have, I think, and encourage others 
to step up.
    The second part of my answer is the bilateral 
relationships. Now, I will put my--the unified commander hat on 
as the U.S. commander of forces in Europe and in Africa, and 
this is what this legislation gets us to, an increased 
flexibility. I think we should work as my colleagues here at 
the witness table have said. I think we should work toward 
greater clarity in terms of how we do these things.
    But there is no doubt in my mind that if we could get to 
where we could be more agile and more responsive to what is 
going on in the world, and we can better succeed against the 
competition we have--and we do have competition out there for 
the first time, we have serious economic competitors and 
serious security competitors.
    We noticed that some countries are buying their weapons in 
great quantities from Russia, for example, very easy to deal 
with. China is routinely inviting young Africans back to China 
for scholarships and universities for military training. They 
make things very attractive for the business end of things and 
how you engage.
    We need more flexibility. I am convinced of it. I think we 
are going to need it more in the future. I think we have to 
find ways in which my successors, combatant commanders, unified 
commanders, have the responsibility that they need. I think 
that is clear, those lines are clear. But they need more 
flexibility in terms of the resources that they can bring to 
bear at the right time, at the right place.
    There is a time element in this, because we cannot simply 
continue, I think, being seen as a Nation that is to be admired 
and emulated, but too hard to work with because of our 
interlocking bands of conflicting, sometimes offsetting 
authorities. I just they think we need to bring greater clarity 
and precision to how we do things so that we can be successful.
    This is really an aspect of transformation that I want to 
spend just a little moment on, just to say what we are doing 
with the U.S. Armed Forces, and what NATO is doing, I think, is 
we are building a force capability that is no longer dependent 
on mass, big armies, huge numbers deployed all over the world, 
but focused strategic effects with smaller groups, more focus, 
more capability, and empowered to bring about change, but not 
to do it for people, but to do it so that they can help 
themselves.
    At some point we will be able to pull back, and we will be 
able to say, job well done. We have greater security. They have 
greater pride in what they are doing, because they are part of 
the solution, part of the problem and part of the solution. I 
think that is really the nature of the 21st century, as opposed 
to the 20th century, where we would bring in all of the 
capabilities and the incredible amounts of people and massed 
effort.
    It is a different world, but the footprint of the U.S. 
European Command, for example, is going to be dramatically 
reduced in terms of numbers. It is going to be a lot less 
expensive to maintain troops overseas. But what those troops 
are going to do in their transformed state, that strategic 
difference is going to be much more--deliver much more 
capabilities and security and stability through the proper 
application of these, I think, relatively modest amounts of 
money that will yield tremendous strategic return.
    I use--I come back to Africa and sub-Saharan Africa, but 
there are other parts of my 91-country area of responsibility 
(AOR) where we are doing things very inexpensively, but with 
great return on investment.
    Mr. Reyes. But if I can just follow briefly, Mr. Chairman, 
but there is no illusion that we are going to be able to pick 
up the tab.
    General Jones. Not in NATO. In NATO the effort is to make 
others rise, you know, increase their levels of spending. Our 
level of support to NATO is generally fixed. The question on 
the bilateral side, the national side, is do we want--in our 
bilateral relations, do we want to do the kinds of things we 
are proposing. My suggestion is that we do this.
    Mr. Reyes. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. The gentleman from 
Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today. I have two quick 
questions, and then I will react to something that the 
ambassador said, and then you can think about the questions.
    First off, we have got--how to distinguish between the 
types of programs or projects or spending that you are going to 
do under 1206 versus what you are already doing under the IMET, 
or whatever it is. Mr. Ambassador, you make a comment about a 
reserve fund for contingencies, think about how you are going 
to manage that and avoid the bureaucratic desire to spend every 
dollar at the end of the budget year, that kind of thing.
    There is a line in a country song that talks about, you can 
tell by my outfit that I am a cowboy. Well, you can tell by 
where I sit how long I have been here. I am still startled by 
the way we throw numbers around.
    When I think about spending, I think about a fellow working 
morning tour on a drilling rig in west Texas, or I think about 
my six grandkids who we will borrow from. One would take away 
from him and his family. The other would take away form the 
future of our collective grandkids.
    What I heard you say was we got a brand new program, we 
haven't spent the first dollar yet, we are way--we are still in 
the process of trying to figure out what it is and who it is 
are going to spend it. We have got a reasonably good dialogue 
going on between state and the DOD. We have not yet gone to the 
President yet, that is $200 million in the bank, and given 
how--I need another 7---I need another $550 million, because we 
have collectively figured out that. So when you say given 
enough time I can execute and spend this $750 million, it 
doesn't give me a lot of warm fuzzies. I have sat in your chair 
with the state legislature running an agency. Be sensitive to 
where that money comes from.
    I know you were talking at 10,000 feet, and I am probably 
talking at a foot and a half, but this is money some fellow in 
west Texas is working right now to pay, or my grandkids will 
have to pay the interest on the debt anyway, at least when they 
are taxpayers.
    That is my little diatribe. You can react to that and also 
answer the question about how do we distinguish this from what 
we are already doing?
    Ambassador Edelman. Congressman Conaway, first of all, I 
agree with you that our objective ought to be to spend the 
taxpayers' dollar as smartly as we can.
    I think part of the effort here is that, as General Jones 
just said, if we can spend some relatively speaking modest 
amounts of money wisely, we may save ourselves other kinds of 
costs later on. If we can have more people available for 
peacekeeping missions, we can avoid being necessarily dragged 
into or deploying our own folks in these kinds of missions. It 
costs less to field these other folks than it does our folks.
    Mr. Conaway. Yes. I am not arguing about the concept; I 
agree totally with the whole idea how do we make sure we are 
getting the right bang for the buck.
    Ambassador Edelman. To the point about coming back, we 
initially asked for $750 million. We got $200 million. By the 
time we had got the authority, we were already well into the 
fiscal year. So there has been a time constraint under which we 
are working, and we have had to work through some of the other 
requirements that were levied on us in the legislation.
    That is one reason why we are seeking relief from them, 
because as we have worked through some of this, it adds more 
time to the process. What I was trying to say was if we have a 
clear amount of money against which we can plan and know what 
we are going to have to work with, we will be able to execute 
that, because we have that number of potential projects that 
the combatant commanders have identified for us like the Trans-
Sahel Counterterrorism Initiative that General Jones runs, et 
cetera.
    That was my only point. It was not that, you know, give me 
the money--you know, if you build it, they will come. That 
wasn't the idea at all.
    On the question of FMF versus what we do with 1206 or IMET, 
I will defer to Dr. Hillen a little bit, because FMF IMET is 
his program. But, again, I think the issue here is between 
those things that are relatively predictable and deliberate and 
can be planned for in the long budget cycle, if you will, those 
things that come up as opportunities, or challenges that we 
need to meet in a relatively shorter period of time, and trying 
to focus these special authorities that you all have given us 
in this period on the latter, rather than the more predictable 
military education and training, ongoing relationship-tending 
that we normally engage in.
    Mr. Conaway. Well, looking at it on our side in terms of 
oversight, and given that we go on a budget-year-to-budget-year 
kind of concept, how do we manage that? How do we not allow 
that to become a slush fund; we still get the same scrutiny and 
hard decisions that are made, that if you have got $750 million 
in demand, and you only have $500 million, you will do a better 
job of spending that $500 million, perhaps, because you really 
hone in on--how do we on this side of the table get comfort 
that you are spending the money the way----
    Ambassador Edelman. I would spend it----
    Mr. Conaway. That is a horrible way to say it.
    Ambassador Edelman. Well, it is, first of all, a function 
of fact that we are having this hearing today. I am sure we 
will have more in the future, and we will come up and be able 
to answer questions. I hope we will be in a better position to 
answer specifics, because we will have gotten past--either 
gotten these things approved by the President or be operating 
in an environment where if the secretaries of state and defense 
can agree, that will be sufficient.
    I do think--this goes a little bit to Congressman Reyes' 
point as well--worried about what is the check on 
irresponsibility if you have greater flexibility? It is a fair 
question. I do think when you have a process that involves both 
the secretary of defense and the secretary of state certifying 
it, and you require that not only the combatant commanders, but 
the civilians in OSD as well as our colleagues at State, to 
work through this process and then report it to you and the 
members, and the staff, professional staff here as we go 
forward. You know, we undoubtedly will get feedback from you 
and other members about what you think, based on your travels 
and your experiences. That will obviously become a part of the 
process as this goes forward.
    Mr. Conaway. Thank you, Mr. Chairman.
    Dr. Schwarz [presiding]. I think I am up as well. I would 
like to just ask, without specificity, only within certain 
geographic areas, we have historically had a very close 
relationship with the Kingdom of Saudi Arabia, and they have 
used a great deal of United States military equipment. We have 
based people in the Kingdom, but we now have very close 
relationships as well with the Gulf Cooperation Council (GCC) 
Council countries, Kuwait, Oman, Yemen, Bahrain, Qatar.
    What is our attitude now in regard to the Saudis as opposed 
to these other entities in the gulf since the Saudis are now, I 
think, purchasing a Eurofighter?
    Their relationship with us may not be quite as close as it 
was before. We have negotiated free trade agreements with Oman 
and the United Arab Emirates (UAE). What kind of cooperation 
are we getting? What is the attitude of the countries in the 
gulf, and what, in general, without specificity, are our 
intentions in dealing with those countries in the gulf which 
are not Saudi Arabia in the fact that they are buying 
equipment, obviously, from other countries?
    You mention that lots of people are on the markets, 
especially the Russians, which I have been led to believe that 
Russia is the largest arms dealer in the world. Can you give me 
an idea about, in general, in a nonclassified situation? I know 
we are going to go into a classified meeting in a bit, but what 
is our attitude toward the countries in the gulf vis-a-vis 
military assistance, mil-mil especially?
    Ambassador Edelman. Dr. Hillen, of course, manages this 
from the State Department point of view, from the point of view 
of foreign military sales and foreign military funding parts of 
this. It is administered, of course, by the Defense Security 
Cooperation Agency (DSCA) in the Department of Defense.
    I think the countries in the gulf and the kingdom continue 
to be important partners for us in the Global War on Terror, 
and, in particular, the kingdom has been fighting at home with 
increasing effect the terrorist threat they face. There have 
been some stresses and strains over time, but we have had, I 
think, some good exchanges of late.
    The Chairman, General Pace, was in the kingdom recently. We 
are engaged in some other efforts with them, as well as the 
states that make up, for instance, the Gulf Cooperation 
Council, and I expect that those will go forward. I think that 
we will continue to be in a working relationship with them in a 
variety of different areas, and the security challenges they 
face are multivariant. Part of them are from the Global War on 
Terror, and others are some regional developments. I think both 
of those efforts will incline us to be working together more 
closely.
    Dr. Hillen. Mr. Chairman, on a couple of points, from a 
security assistance perspective point, of course, we don't 
provide any security assistance to the region because they are 
very wealthy. They are very wealthy countries. However, we do 
aid them and are their principal partner of all the GCC 
countries in the mil relationship.
    In the Saudi Arabia relationship in particular, I don't 
think it is a huge security concern for a couple of reasons. 
Some of the recent acquisition decisions, the Kingdom of Saudi 
Arabia has in general over its history maintained several 
acquisition tracts. You can largely characterize them as a 
European-based one and an American-based one. So when they 
replaced Typhoons and Eurofighters, I think it is seen in that 
stream, where we would be concerned is if they replaced F-16s 
with Rafaels or something along those lines.
    But they, of course, have a very close relationship with us 
and then us to maintain access and influence. They know we have 
the best military in the world, and they want to continue to 
have a relationship in weapons platforms to training to things 
we do in IMET with the best military in the world.
    On your macro question, I recently came back from the 
region. I recently talked with the ministers with the four GCC 
countries. I talked in concert with Peter Rodman, Assistant 
Secretary of Defense, another message of how we are trying to 
do these things together as one national security team.
    We went to talk with them about Iraq for the first part, 
and they wanted to talk about Iran, Iran and the threat of a 
potentially nuclear Iran. An expansionist Iran is driving the 
GCC countries and the others in the region together. I think we 
have an opportunity in front of us to reframe gulf security, 
understand their security concerns, and work with them and even 
form closer and more productive and integrated defense 
relationships in the region. We will work through that over 
time.
    We feel, from the policy-planning perspective, in terms of 
foreign policy at the State Department, we are pretty positive 
about our relationships in the region, but also realize that 
they need to continue to change, keep up with the new dynamics, 
the new Iraq, where Iran is and the other changes in the 
region.
    Dr. Schwarz. So it would not be an unfair or inaccurate 
statement to say that we would like to look at our allies in 
the gulf, especially in the GCC countries and in Saudi Arabia 
because of the Wahabi movement and Salafists coming out of 
Saudi Arabia, that they do--and we can expect them and we hope 
that they act as a counterweight to Iran. That would not be an 
inaccurate statement, would it?
    Dr. Hillen. I do not think that would be inaccurate, Mr. 
Chairman.
    Dr. Schwarz. General Jones, any comment on that?
    General Jones. No, thank you, sir.
    Dr. Schwarz. The Chairman has indicated--I think we are--
Bill, I am sorry. Mr. Shuster. The gentleman from Pennsylvania.
    Mr. Shuster. Thank you very much.
    First of all, I am not clear, I think I know where we are 
spending this money, but just to be clear, we are not spending 
it on our wealthier allies--Doc, I think you said, Saudis; we 
don't give the Saudis any money.
    Dr. Hillen. They get a small amount of money to stay in the 
IMET program, just to participate, it is a couple thousand 
dollars. But, no, we use security assistance for countries that 
can't otherwise afford it to build up their capacities.
    Mr. Shuster. Europeans, they don't receive any of this 
money there?
    Dr. Hillen. The money for the most part goes to countries 
in Eastern Europe; the Balkans and elsewhere also receive some 
security assistance.
    Mr. Shuster. Okay. Along the same line of questioning that 
Mr. Reyes was on, I have great concern about--we don't have the 
unlimited resources to spend and continue to spend. I think it 
is imperative that our allies, especially NATO allies, step up 
to the plate.
    General, you talked of them in broad, general terms. I 
think as Members of Congress we should know which of our allies 
are really pushing our envelope, or out there leading, or 
spending more money, or have been very cooperative with us. I 
wonder if you might talk about those in NATO or around the 
world that are doing just that, are being very helpful and 
supportive in this effort.
    General Jones. Thank you. The numbers in NATO, for example, 
in terms of that two percent of GDP standard that I mentioned, 
while not encouraging, basically only seven countries in the 
alliance are spending two percent or more of their GDP on 
security, so we have quite a ways to go.
    Mr. Shuster. Who are they?
    General Jones. I think it is the U.K., France, Italy, the 
U.S.
    Ambassador Edelman. Turkey.
    General Jones. Turkey. Very good.
    Mr. Shuster. The Dutch?
    General Jones. I have the list, I just don't have it with 
me. I will share it if you would like to see it.
    [The information referred to can be found in the Appendix 
beginning on page 65.]
    Mr. Shuster. I was in the Netherlands in December and I 
think maybe, Ambassador, I was there on the heels--when you and 
Secretary Feith were over there trying to convince the Dutch to 
take over security in Kandahar. But I was very impressed with 
General Berline, and, at least from the military standpoint, 
their willingness. We met with members of Parliament and those 
who were like-minded that wanted to do more, and they had a 
tough political situation.
    Can you comment? I think I got the report the Dutch did 
agree to put 1,400 troops into Kandahar.
    Ambassador Edelman. That was my colleague, my two 
colleagues Peter Flory and Ambassador Freid who went together, 
and General Jones may want to comment about this more because 
it is really specifically something he has been working; but, 
yes, the Dutch have agreed to deploy as part of the 
International Security Assistance Force (ISAF) NATO stage three 
in the south.
    General Jones. Actually, the aftermath of the entire 
process, while a little painful to go through, turned out to be 
an overwhelming affirmation on the part of the Dutch Parliament 
to support the mission. So it really, at the end, had a very 
good effect on not only the commitments of the Dutch forces but 
it also reassured some of the neighboring countries that we are 
all going forward together so it is a positive outcome.
    Mr. Shuster. It would seem to me also for our allies, the 
wealthier allies, if we are using commonality in equipment--I 
know the joint strike fighter, weapons systems, smaller weapons 
systems--that would seem to me to help in the effort to train 
the Jordanians and the Afghanis if everybody is using similar 
weapons. Is that something we are moving forward with and 
pressuring or encouraging our European allies and other 
wealthier allies to try figure out how we can use similar 
weapons systems?
    Dr. Hillen. I can talk about this in the context of the 
coalition. One of the great things that NATO has proven to be a 
bedrock for is we have got these 63 countries in the coalition 
on the Global War on Terror. And you may have traveled down to 
MacDill Air Force Base; they were actually going to move them 
from the trailers into a building. This is an enduring feature 
of the strategic landscape that we will fight with, with the 
number of countries who are of like mind. And one of the great 
things with that broad coalition is NATO's bedrock and 
framework of all our alliance and coalition structures and, 
over the course of time, evolved political and operational and 
acquisition commonalities ranging from standardization 
agreements (STANAG) to standard operating procedures (SOP) to 
other things that we want to layer onto the coalition of the 
willing.
    We have seen other wealthy countries like Japan, Australia, 
Korea, that are acting in a way along the lines of what you 
were thinking, and they are contributing heavily. And on some 
programs I think we need to go back to our allies across the 
globe and say there is even another level you can rise to, 
because we are--the United States provides a disproportionate 
share of the common good of security around the world, from 
which everybody benefits. And that is an argument we make 
constantly in every quarter and it is an argument that is 
usually well received, but we always need to continue to need 
to make it because there is a lot of security task out there in 
the world.
    General Jones. Our interoperability is absolutely essential 
in the alliance and we worked very hard on that and we have an 
entire command. My colleague, General Smith, the commander of 
allied command transformation, that is really the raison d'etre 
of the command, is to harmonize the divergent capabilities that 
we have.
    In NATO I would say that the maritime forces are the most 
interoperable, followed by the air forces, and followed by the 
land forces; and the land forces is where the bulk of the work 
has yet to be done. But it is amazing to see the maritime 
forces of the nations operating together. They have done this 
now for over 20 years and it is really a beautiful thing to 
watch. We are hopeful that in time the land forces will reach 
that same degree of interoperability.
    Mr. Shuster. Thank you for being here today and I 
appreciate your comments.
    General Jones. I might add, if I may, that the NATO 
response force, which is destined to reach full operational 
capability on 1 October of this year, is probably the 
quintessential example of interoperability and combined arms 
coming together, and that is a first for NATO. But when it 
comes into its maturity I think you will see a tremendous help 
there for the United States and a lot of its missions.
    Mr. Shuster. How big is that force?
    General Jones. Twenty-five thousand soldiers, sailors, 
airmen, marines, and special ops in each 6-month rotation.
    Mr. Shuster. Thank you very much.
    Dr. Schwarz. The gentlelady from California had a quick 
comment to make, I believe, before we go into closed session.
    Ms. Davis of California. Thank you, Mr. Chairman. I 
appreciate it. This has been an excellent hearing and I think 
what it brings to mind is our discussions of interagency 
collaboration. And we kept asking what can we as Congress do, 
and I think breaking down those silos we have here is also one 
of those, because I think there are some real serious 
implications for congressional oversight.
    We have enough difficulty, as you know, Mr. Chairman, 
following the House Armed Services Committee (HASC) issues, and 
when we deal with these complex and vital issues, we need more 
time to do that. We certainly need a new level of expertise to 
do it as well. So I appreciate that and I hope that we will 
continue to do that in the future.
    Dr. Schwarz. Does the Ranking Member, the gentleman from 
Missouri, have any comments?
    Mr. Skelton. No, except to thank our witnesses for being 
with us today.
    Dr. Schwarz. Thank you, sir.
    Gentlemen, thank you very much. We are going to adjourn for 
five minutes and then we will go into a closed session.
    [Whereupon, at 12:02 p.m., the committee recessed, to 
continue in Executive Session.]


      
=======================================================================




                            A P P E N D I X

                             April 7, 2006

=======================================================================

      

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 7, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2973.001
    
    [GRAPHIC] [TIFF OMITTED] T2973.002
    
    [GRAPHIC] [TIFF OMITTED] T2973.003
    
    [GRAPHIC] [TIFF OMITTED] T2973.004
    
    [GRAPHIC] [TIFF OMITTED] T2973.005
    
    [GRAPHIC] [TIFF OMITTED] T2973.006
    
    [GRAPHIC] [TIFF OMITTED] T2973.007
    
    [GRAPHIC] [TIFF OMITTED] T2973.008
    
    [GRAPHIC] [TIFF OMITTED] T2973.009
    
    [GRAPHIC] [TIFF OMITTED] T2973.010
    
    [GRAPHIC] [TIFF OMITTED] T2973.011
    
    [GRAPHIC] [TIFF OMITTED] T2973.012
    
    [GRAPHIC] [TIFF OMITTED] T2973.013
    
    [GRAPHIC] [TIFF OMITTED] T2973.014
    
    [GRAPHIC] [TIFF OMITTED] T2973.015
    
    [GRAPHIC] [TIFF OMITTED] T2973.016
    
    [GRAPHIC] [TIFF OMITTED] T2973.017
    
    [GRAPHIC] [TIFF OMITTED] T2973.018
    
    [GRAPHIC] [TIFF OMITTED] T2973.019
    
    [GRAPHIC] [TIFF OMITTED] T2973.020
    
    [GRAPHIC] [TIFF OMITTED] T2973.021
    
    [GRAPHIC] [TIFF OMITTED] T2973.022
    
    [GRAPHIC] [TIFF OMITTED] T2973.023
    
    [GRAPHIC] [TIFF OMITTED] T2973.024
    


      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 7, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. HUNTER

    The Chairman. How much does it cost to maintain a company of troops 
stationed in Germany versus a troop company in the continental Unites 
States (e.g., Fort Hood)?
    Ambassador Edelman. Based on the Army's Force Cost Estimate Model, 
which captures base operations support, family housing, and sustainment 
of facilities, it costs the Army about $2 million per year to maintain 
a troop company in Germany, compared to $1 million per year in the 
United States, or about twice as much.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER

    Mr. Shuster. I think as Members of Congress we should know which of 
our allies are really pushing our envelope, or out there leading, or 
spending more money, or have been very cooperative with us. I wonder if 
you might talk about those in NATO or around the world that are doing 
just that, are being very helpful and supportive in this effort?
    General Jones. Seven of twenty six NATO Alliance member countries 
spend two percent or more of their Gross Domestic Product (GDP) on 
total defense. They are: Bulgaria, France, Greece, Rumania, Turkey, 
United Kingdom, and the United States.

                                  <all>

</pre></body></html>
